TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                            Office of Inspections and Evaluations




                                        RECOVERY ACT

                The IRS’s Accounting for American Recovery
                 and Reinvestment Act Fund Expenditures
                              During the Period
                  October 1, 2009, through March 31, 2010



                                      September 6, 2011

                           Reference Number: 2011-IE-R007




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.




 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                      DEPARTMENT OF THE TREASURY
                                            WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               September 6, 2011


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


 FROM:                         R. David Holmgren
                               Deputy Inspector General for Inspections and Evaluations

 SUBJECT:                      Final Inspection Report – The IRS’s Accounting for
                               American Recovery and Reinvestment Act Fund
                               Expenditures During the Period October 1, 2009,
                               through March 31, 2010 (IE-11-011-A)

 This report presents the results of our inspection to determine the Internal Revenue
 Service’s (IRS) compliance with the Office of Management and Budget’s (OMB)1 Implementing
 Guidance2 for the American Recovery and Reinvestment Act (Recovery Act) of 2009.3 This is
 the third in a series of inspections regarding compliance with OMB Recovery Act Guidance.
 The overall objective of this inspection was to verify the accuracy of the IRS’s accounting and
 timeliness of reporting Recovery Act procurement expenditures for the period October 1, 2009,
 through March 31, 2010.
 The Recovery Act provides separate funding to the Treasury Inspector General for Tax
 Administration through September 30, 2013, to be used in the oversight activities of IRS
 programs.4 This inspection was conducted using Recovery Act funds.




 1
   The OMB has the primary responsibility for developing Government-wide rules and procedures to ensure that
 funds are awarded and distributed in a prompt and fair manner; that uses of unds are transparent to the public; and
 that steps are taken to mitigate fraud, waste and abuse.
 2
   M-09-10, Initial Implementing Guidance for the American Recovery and Reinvestment Act of 2009,
 February 18, 2009, § 5.6, and M-09-15, Updated Implementing Guidance for the American Recovery Reinvestment
 Act of 2009, April 3, 2009, § 5.6 and § 7.6.
 3
   Pub. L. No. 111-5, 123 Stat. 115 (2009).
 4
   Law 111-5, Title V – Financial Services and General Government, page 123, Stat.148.
                   The IRS’s Accounting for the American Recovery
                   and Reinvestment Act Fund Expenditures During
                         the Period October 1, 2009, through
                                   March 31, 2010


Synopsis
The IRS was in substantial compliance with the OMB’s Implementing Guidance during the
period October 1, 2009, through March 31, 2010. The IRS purchased goods and services
totaling over $22 million5 during the inspection period. Further, the IRS appropriately obtained
nearly all of the total available discounts for Recovery Act-related procurements. For the
Recovery Act expenditures, the IRS executed adequate internal controls to ensure timely
reporting; however, errors were made on two weekly reports totaling approximately $4 million.6
Subsequent to our inspection period, on November 17, 2010, the IRS formally documented their
controls and processes for Recovery Act expenditures.7
If you have questions, please contact me at (202) 927-7048 or Kevin P. Riley, Director, Office of
Inspections and Evaluations, at (972) 249-8355.




5
  The IRS received Recovery Act-related invoices totaling $22,194,757.43 and paid $22,009,408.53. Discounts
were offered on $18,534,890 and the IRS realized the maximum discount totaling $185,348.90 (100 percent).
6
  There was an overstatement of $93,685 for the week of December 4, 2009. The Financial and Activity Reports
reflected Total Obligations of $84,487,948 and the Status of Available Funds has $84,394,263. The Financial and
Activity Reports for February 19, 2010 reflected $70,435,498 in Total Gross Obligations and the Status of Available
Funds showed $74,475,132 for an understatement of $4,039,634.
7
  IRS’s Policy and Procedures Memorandum No. 70.26 establishes procedures for acquisitions utilizing Recovery
Act funding. It incorporates current OMB requirements and guidelines to effectively manage activities under the
Recovery Act.
                                                                                                                  2
                        The IRS’s Accounting for American Recovery and
                        Reinvestment Act Fund Expenditures During the
                                Period October 1, 2009, through
                                        March 31, 2010




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Inspection ......................................................................................... Page 4
          Recovery Act Expenditures Reported by the IRS Were Accurate and
          Substantiated by Complete and Reliable Supporting Invoices ..................... Page 4
          Amounts the IRS Reported to the Office of Management and Budget
          Reconciled to the IRS’s Financial Systems for 23 of the 25 Weeks ............ Page 5
          The IRS’s Financial Reports Complied with the Office of Management
          and Budget’s Guidance and Recovery Act Requirements ............................ Page 6
          The IRS Submitted the Recovery Act Reports in a Timely Manner ............ Page 6

Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology ....................... Page 7
          Appendix II – Major Contributors to This Report ........................................ Page 10
          Appendix III – Report Distribution List ....................................................... Page 11
            The IRS’s Accounting for American Recovery and
            Reinvestment Act Fund Expenditures During the
                    Period October 1, 2009, through
                            March 31, 2010




                          Abbreviations

FAR                 Financial and Activity Report
IRS                 Internal Revenue Service
OMB                 Office of Management and Budget
RAT Board           Recovery Accountability and Transparency Board
                    The IRS’s Accounting for American Recovery and
                    Reinvestment Act Fund Expenditures During the
                            Period October 1, 2009, through
                                    March 31, 2010




                                            Background

The American Recovery and Reinvestment Act (Recovery Act) of 2009,1 enacted on
February 17, 2009, allocated $787 billion over 10 years designed to stimulate the national
economy. The Recovery Act contained both spending and tax provisions.
The Internal Revenue Service (IRS) is responsible for administering the tax law changes2
contained in the Recovery Act. In April 2009, the IRS received $202 million3 of its
appropriation of Recovery Act funds.4 These funds are required to implement the necessary tax-
related changes resulting from provisions of the Recovery Act. The changes included
reprogramming the IRS computer systems; updating related tax forms and publications; and
providing customer service to assist taxpayers in obtaining their Recovery Act-related benefits.
As of April 2, 2010, the IRS had obligated over $134 million, with disbursements exceeding
$92 million.5
The Recovery Act requires stringent accountability for performance and results, as well as
unprecedented transparency. The Recovery Accountability and Transparency Board (RAT
Board),6 provides transparency to the public concerning Recovery Act funds by publishing IRS’s
results on its website, http://www.recovery.gov (last visited June 3, 2011).




1
  Pub. L. No. 111-5, February 17, 2009.
2
  The Recovery Act included more than 50 tax law provisions that the IRS is charged with administering. These tax
changes included refundable credits such as the Making Work Pay Credit and the First-Time Homebuyer Credit.
3
  We were informed by the Deputy Chief Financial Officer, Corporate Budget, Budget Execution Office, Execution
Analysis that the Department of the Treasury retained $1 million of the $203 million of the original appropriation
for administrative oversight. This resulted in the IRS receiving $202 million.
4
  Pub. L. No. 111-5, February 17, 2009. This appropriation included $80 million for Fiscal Years 2009 through
2010 to implement the Health Coverage Tax Credit program. The IRS also received $123 million for supporting tax
provision changes cited in the Recovery Act.
5
  The IRS obligated $68,583,803.63 for Health Insurance Tax Credit Administration, disbursing $34,033,835.75 as
of April 2, 2010. The IRS obligated $65,436,763.99 to cover Administrative Expenses funded under the Recovery
Act, disbursing $58,173,591.61.
6
  The RAT Board was created by the Recovery Act with two goals: to provide transparency of Recovery-related
funds and to prevent and detect fraud, waste, and mismanagement. Twelve Inspectors General from various Federal
agencies serve with the chairman. The RAT Board issues quarterly and annual reports to the President and Congress
and, if necessary, “flash reports” on matters that require immediate attention.
                                                                                                          Page 1
                     The IRS’s Accounting for American Recovery and
                     Reinvestment Act Fund Expenditures During the
                             Period October 1, 2009, through
                                     March 31, 2010


The Office of Management and Budget (OMB)7 issued several supplemental guidance
documents8 that outlined steps for implementing the Recovery Act and also clarified the new
requirements for processing procurements. The OMB’s Initial Implementing Guidance was
issued on February 18, 2009. Additional guidance was dated February 25, 2009, April 3, 2009,
and March 22, 2010, and included the following requirements:

    1. Federal agencies are required to report to the RAT Board, on a weekly basis, all
       cumulative Recovery Act obligations and gross outlays9 (expenditures) in a standard
       reporting format;
    2. Federal agencies are required to use separate Treasury Appropriation Fund Symbols10 to
       track and report Recovery Act obligations and disbursements; and
    3. Federal agencies are required to report their cumulative activity through Friday and
       submit their weekly reports the following Tuesday.
The IRS’s Office of the Chief Financial Officer prepares the Total Obligations and Gross
Outlays sections of the OMB Financial and Activity Report (FAR) and submits it to the IRS’s
Recovery Act staff every week. IRS Recovery Act staff members validate the information and
post it to the OMB’s MAX web page11 for the Department of the Treasury’s consolidation and
approval prior to their final posting.
We performed this review during the period January through April 2011, at the IRS Office of the
Chief Financial Officer in Washington, D.C. and the IRS Office of Procurement in


7
  The OMB has primary responsibility for developing Government-wide rules and procedures to ensure that funds
are awarded and distributed in a prompt and fair manner; that uses of funds are transparent to the public; and that
steps are taken to mitigate fraud, waste and abuse.
8
  M-09-10, Initial Implementing Guidance for the American Recovery and Reinvestment Act of 2009,
February 18, 2009, and M-09-15, Updated Implementing Guidance for the American Recovery Reinvestment Act
of 2009, April 3, 2009.
9
  Total Obligations equal the sum of financial commitments and expenditures. Total Outlays consist of only
expenditures.
10
   Treasury Appropriation Fund Symbol is an identification code assigned by the Department of the Treasury, in
collaboration with the OMB and the owner agency, to an individual appropriation, receipt, or other fund account. It
is used to describe a particular type of Treasury Fund Symbol that has budget authority. All financial transactions of
the Federal Government are classified by a Treasury Fund Symbol for reporting to the Department of the Treasury
and the OMB.
11
   The OMB's Max web page, https://max.omb.gov/maxportal/home.do, is a web-based apportionment system to
send apportionment requests to OMB. Agency budget offices use the apportionment application to help prepare
apportionment requests, to send those requests to the OMB, and to run reports against previously approved
apportionments. OMB examining divisions use the application to send electronic copies of approved
apportionments to agencies and to run reports against previously approved apportionments.
                                                                                                              Page 2
                 The IRS’s Accounting for American Recovery and
                 Reinvestment Act Fund Expenditures During the
                         Period October 1, 2009, through
                                 March 31, 2010


Oxon Hill, Maryland. The review only included ARRA invoices submitted to IRS for payment
during the period October 1, 2009, through March 31, 2010.
We will review Recovery Act procurement activities for the period April 1, 2010, through
September 30, 2010, in both ongoing and planned inspections.
This inspection was performed in accordance with the Council of the Inspectors General for
Integrity and Efficiency Quality Standards for Inspections. Detailed information on the
objectives, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                           Page 3
                    The IRS’s Accounting for American Recovery and
                    Reinvestment Act Fund Expenditures During the
                            Period October 1, 2009, through
                                    March 31, 2010




                                 Results of Inspection

The IRS was in substantial compliance with the OMB Implementing Guidance during the period
October 1, 2009 through March 31, 2010. For Recovery Act expenditures, the IRS executed
adequate internal controls to ensure timely and accurate reporting; however, errors appeared on
two weekly reports totaling approximately $4 million.12 The IRS corrected these errors on later
reports. As of April 2, 2010, the IRS had obligated over $134 million, with disbursements
exceeding $92 million. The IRS formally documented their Recovery Act process on
November 17, 2010.13 This documentation was in response to the need for written procedures
regarding Recovery Act procurement requirements identified in June 2010 by the Treasury
Inspector General for Tax Administration.14

Recovery Act Expenditures Reported by the IRS Were Accurate and
Substantiated by Complete and Reliable Supporting Invoices
During the period October 1, 2009, through March 31, 2010, the IRS continued procurement
actions implementing the Recovery Act program objectives. During this period, the IRS
purchased goods and services totaling over $22 million.15 The IRS spent almost $19 million on
the Health Insurance Tax Credit Administration and $3.5 million in Recovery Act administrative
costs.16 These purchases consisted of system changes for reprogramming the IRS’s computer
systems and updating related tax forms and publications. Additionally, the IRS spent funds on
customer service enhancements to assist taxpayers in obtaining Recovery Act benefits. Further,


12
   There was an overstatement of $93,685 for the week of December 4, 2009. The FARs reflected Total Obligations
of $84,487,948 and the Status of Available Funds was reported as $84,394,263. The FARs for February 19, 2010
reflected $70,435,498 in Total Gross Obligations and the Status of Available Funds showed $74,475,132 for an
understatement of $4,039,634.
13
   The IRS’s Policy and Procedures Memorandum No. 70.26 establishes procedures for acquisitions utilizing
Recovery Act funding. It incorporates current OMB requirements and guidelines to effectively manage activities
under the Recovery Act.
14
   Treasury Inspector General for Tax Administration, Ref. No. 2010-11-071, Additional Actions Are Needed to
Ensure Readiness to Comply With the American Recovery and Reinvestment Act of 2009 Procurement Requirements
3 (June 2010).
15
   The IRS received Recovery Act-related invoices totaling $22,194,757.43 and it paid $22,009,408.53. Vendors
offered discounts on $18,534,890 and the IRS realized the maximum discount totaling $185,348.90 (100 percent).
16
   The IRS disbursed $18,705,246.00 on the Health Insurance Tax Credit and $3,489,511.43 on Recovery Act
Administrative costs for tax provisions during this review period.
                                                                                                       Page 4
                    The IRS’s Accounting for American Recovery and
                    Reinvestment Act Fund Expenditures During the
                            Period October 1, 2009, through
                                    March 31, 2010


the IRS appropriately obtained almost 100 percent of the more than $185,000 in funds available
for discounts on Recovery Act-related procurements.
Transparency and accuracy are highly dependent on the proper classification and advertisement
of Recovery Act-related procurements. To ensure proper classification, Contracting Officers
may create and list additional contract line item numbers to prevent commingling of Recovery
Act funds with non-Recovery Act funds on existing contracts.17 The IRS appropriately
advertised18 Recovery Act procurements as additional Contract Line Item Numbers19 in Federal
Business Opportunities (https://www.fbo.gov/). The IRS also identified the respective contract
line item numbers in the Web Request Tracking System,20 in their Integrated Financial System,21
and on invoices submitted for payment.

Amounts the IRS Reported to the Office of Management and Budget
Reconciled to the IRS’s Financial Systems for 23 of the 25 weeks
The IRS submits their FARs of cumulative Recovery Act obligations and gross outlays weekly to
the Department of the Treasury. Their input is included in the Department’s consolidated FAR
and posted on Recovery.gov, http://www.recovery.gov, (last visited June 3, 2011).22 We
reviewed 25 of the 26 weeks between October 2009 through March 2010.23
We were able to reconcile 23 of the 25 weeks of the Expenditures and Disbursements on the
Status of Available Funds Obligations reports to the FARs for both direct and interagency
transfers, also known as reimbursable agreements.




17
   Federal Register, Vol. 74, No. 60, Tuesday, March 31, 2009, Rules and Regulations, paragraph 4.1501.
18
   These notices were provided for informational purposes only.
19
   Federal Acquisition Regulation 4.1001 states “Contract line items should provide unit prices or lump sum prices
for separately identifiable contract deliverables, and associated delivery schedules or performance periods. Line
items may be further subdivided or stratified for administration purposes.”
20
   A system called WebRTS (formerly Request Tracking System) provides a flexible and efficient way to prepare,
approve, fund, and track requisitions for goods and services. WebRTS provides an electronic interface between the
Integrated Financial System (IFS) and the web-based Integrated Procurement System (webIPS).
21
   Financial system used by the IRS to ensure proper accounting and timely reporting of the appropriated funds
received by the IRS.
22
   OMB Memorandum M-09-15, paragraph 2.4 and OMB Memorandum M-09-10, paragraph 2.4 require that all
agencies receiving Recovery Act funds submit information to OMB as recorded in the agency financial systems on a
cumulative basis every week.
23
   A FAR was not generated on February 5, 2010, because the Government was closed due to snow.
                                                                                                          Page 5
                    The IRS’s Accounting for American Recovery and
                    Reinvestment Act Fund Expenditures During the
                            Period October 1, 2009, through
                                    March 31, 2010


     1. For the week ending December 4, 2009, the total obligations on the FAR were
        approximately $90,00024 higher than the Status of Available Funds. The FAR amount
        was based on the Funding Notification Report25 and not the Status of Available Funds.
     2. For the week ending February 19, 2010, the total gross outlays on the FAR did not
        include nearly $4 million26 in IRS labor disbursements due to an oversight by the
        preparer.
The IRS corrected these errors on the FAR the following week.

The IRS’s Financial Reports Complied with the Office of Management
and Budget’s Guidance and Recovery Act Requirements
The IRS complied with OMB guidance and Recovery Act requirements by:
        •    Submitting weekly reports of its cumulative Recovery Act obligations and gross
             outlays in the prescribed format;
        •    Using separate Treasury Appropriation Fund Symbols for their two Recovery Act
             funds; and
        •    Ensuring Recovery Act expenditures were transparent to the public by posting data to
             the IRS Recovery Act website and submitting data to the RAT Board for posting to
             the Government-wide website.
The IRS Submitted Recovery Act Reports in a Timely Manner
The IRS submitted timely financial reports to the Department of the Treasury for distribution to
the RAT Board. The reports included obligation and gross outlay activity through the prior
Friday. The Department of the Treasury transmits the reports weekly to the RAT Board.
The OMB requires Federal agencies to transmit the reports each Tuesday afternoon, but will
allow an extension until Wednesday morning. The RAT Board includes timely received reports
from the agencies in its weekly posting to Recovery.gov, http://www.recovery.gov, (site last
visited June 3, 2011). This process will assist in ensuring that the the IRS’s use of Recovery Act
funds is accompanied by unprecedented transparency.


24
   Total obligations on the FAR for December 4, 2009 were $93,685 based on the Funding Notification Report.
25
   Treasury Policy and Procedures Memorandum No. 70.26, paragraph 6.c(3) states, “Federal agencies are required
to provide information on the funding notifications made for all Recovery Act award types.”
26
   The FARs for February 19, 2010 reflected $70,435,498 in Total Gross Obligations and the Status of Available
Funds were reported as $74,475,132, showing an understatement of $4,039,634.
                                                                                                        Page 6
                    The IRS’s Accounting for American Recovery and
                    Reinvestment Act Fund Expenditures During the
                            Period October 1, 2009, through
                                    March 31, 2010


                                                                                                Appendix I

        Detailed Objectives, Scope, and Methodology

The overall objective of this inspection was to verify the accuracy of the IRS's accounting and
timeliness of reporting of American Recovery and Reinvestment Act (Recovery Act) of 20091
procurement expenditures. This inspection evaluated whether the invoices submitted by the
contractors were paid by the IRS and were supportable and allowable. We reviewed all
25 invoices paid for the period October 1, 2009, through March 31, 2010. The IRS purchased
goods and services totaling over $22 million during this period.2
To accomplish these objectives, we:
I.      Determined whether Recovery Act procurement expenditures reported by the IRS are
        accurate and substantiated by complete and reliable supporting invoices.
        A. Reviewed the IRS’s Policy and Procedures Memorandums No.1.6 (C) (dated
           April 26, 2011) and No. 46.5 (dated March 14, 2011).
        B. Interviewed two Contracting Officers and three Contracting Officer’s Technical
           Representatives involved in the administration of Recovery Act-related contracts to
           gain an understanding of the invoice verification process.
        C. Obtained Recovery Act related procurement details for 15 contracts from Web
           Request Tracking System3 for the period October 2009 through March 2010, and
           25 related invoices paid through April 2010, covering expenditures through
           March 2010.
        D. Identified Recovery Act-related procurement expenditures during October 2009
           through March 2010.
        E. Traced Recovery Act procurement expenditures to available supporting
           documentation.


1
  Pub. L. No. 111-5, February 17, 2009.
2
  The IRS received Recovery Act-related invoices totaling $$22,194,757.43 and paid $22,009,408.53, realizing
$185,348.90 in discounts of the maximum available discounts on $18,534,890 (100 percent).
3
  WebRTS (formerly Request Tracking System) provides a flexible and efficient way to prepare, approve, fund, and
track requisitions for the delivery of goods and services. WebRTS provides an electronic interface between the
Integrated Financial System (IFS) and the web-based Integrated Procurement System (webIPS).

                                                                                                         Page 7
                     The IRS’s Accounting for American Recovery and
                     Reinvestment Act Fund Expenditures During the
                             Period October 1, 2009, through
                                     March 31, 2010


         F. Verified the mathematical accuracy of expenditures and supporting documentation.
II.      Determined if the reports submitted by the IRS to the OMB4 reconciled to their financial
         system.
         A. Obtained all the weekly FARs5 that the IRS provided to the Department of the
            Treasury and subsequently submitted to the RAT Board6 and posted to the Recovery
            Act website http://www.recovery.gov, (last visited June 3, 2011).
         B. Reviewed informal FARs that the IRS provided to the Department of the Treasury
            reflecting the interagency transfers, also known as reimbursable agreements.
         C. Obtained Status of Funds reports from the IRS’s Integrated Financial System.7
         D. Reconciled the sum of the obligations, expenditures and disbursement amounts from
            the Integrated Financial System report to the Total Obligations and Gross Outlays8
            columns of the FAR.
         E. Reconciled 23 of the 25 weekly reports provided during the period October 1, 2009,
            through March 31, 2010.9




4
  The OMB has primary responsibility for developing Government-wide rules and procedures to ensure that funds
are awarded and distributed in a prompt and fair manner, that use of funds are transparent to the public, and that
steps are taken to mitigate fraud, waste and abuse.
5
  The FAR is required by all agencies receiving Recovery Act funds. They must submit the following information
to the OMB for cumulative Recovery Act activities through the preceding Friday: cumulative year-to-date amounts
by Treasury Appropriation Fund Symbol, total appropriations, total obligations and total expenditures as recorded in
the agency’s financial systems and a short bulleted list of the major actions taken to date and major planned actions.
“Major” actions include those of likely interest to senior Government officials, Congress, and the public.
6
  The RAT Board was created by the Recovery Act with two goals: to provide transparency of Recovery-related
funds and to prevent and detect fraud, waste, and mismanagement. Twelve Inspectors General from various Federal
agencies serve with the chairman. The RAT Board issues quarterly and annual reports to the President and Congress
and, if necessary, “flash reports” on matters that require immediate attention.
7
  The financial system used by the IRS to ensure proper accounting and timely reporting of the appropriated funds
received by the IRS.
8
  Total Obligations equal the sum of financial commitments and expenditures. Total Outlays consist of expenditures
only.
9
  The IRS made an overstatement of $93,685 for the week of December 4, 2009. The FARs reflect Total
Obligations of $84,487,948 and the Status of Available Funds (SOAF) showed $84,394,263. The FARs for
February 19, 2010 reflect $70,435,498 in Total Gross Obligations and the SOAF has $74,475,132 for an
understatement of $4,039,634.
                                                                                                             Page 8
                     The IRS’s Accounting for American Recovery and
                     Reinvestment Act Fund Expenditures During the
                             Period October 1, 2009, through
                                     March 31, 2010


III.     Determined whether the IRS has established effective controls to identify, record, and
         report Recovery Act expenditures in accordance with the OMB’s guidance.10
         A. Obtained and reviewed all guidance issued by the OMB pertaining to procuring goods
            and services using Recovery Act funds.
         B. Reviewed the IRS’s Policy and Procedures Memorandum No. 70.26, dated
            November 17, 2010.11
         C. Evaluated procedures for recording Recovery Act obligations and payments made
            against Recovery Act funds.
         D. Verified that separate Treasury Appropriation Fund Symbols12 were used for their two
            Recovery Act funds. One was used for Administrative Expense – Recovery Act and
            a second for Health Insurance Tax Credit Administration – Recovery Act.
IV.      Reviewed the IRS’s procedures to ensure timely reporting of Recovery Act expenditures,
         including established internal controls.
         A. Discussed the process to record and report Recovery Act expenditures to the
            Department of the Treasury for inclusion in the FAR.
         B. Reviewed the 25 Department of the Treasury FARs from October 2009 through
            March 2010 posted on Recovery.gov, http://www.recovery.gov, (last
            visited June 3, 2011).




10
   M-09-10, Initial Implementing Guidance for the American Recovery and Reinvestment Act of 2009,
February 18, 2009, and M-09-15, Updated Implementing Guidance for the American Recovery Reinvestment Act
of 2009, April 3, 2009.
11
   IRS’s Policy and Procedures Memorandum No. 70.26 establishes procedures for acquisitions utilizing Recovery
Act funding. It incorporates current OMB requirements and guidelines to effectively manage activities under the
Recovery Act.
12
   The Treasury Appropriation Fund Symbol is an identification code assigned by the Department of the Treasury, in
collaboration with the OMB and the owner agency, to an individual appropriation, receipt, or other fund account. It
is used to describe a particular type of Treasury Fund Symbol that has budget authority. All financial transactions of
the Federal Government are classified by Treasury Fund Symbol for reporting to the Department of the Treasury and
the OMB.

                                                                                                             Page 9
                The IRS’s Accounting for American Recovery and
                Reinvestment Act Fund Expenditures During the
                        Period October 1, 2009, through
                                March 31, 2010


                                                                 Appendix II

                 Major Contributors to This Report

Kevin P. Riley, Director
Stanley Rinehart, Supervisory Evaluator
Roy Burton, Program Analyst




                                                                      Page 10
                The IRS’s Accounting for American Recovery and
                Reinvestment Act Fund Expenditures During the
                        Period October 1, 2009, through
                                March 31, 2010


                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Assistant Deputy Commissioner for Operations Support OS
Chief, Agency-Wide Shared Services OS:A
Director, Procurement OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons: Chief, Agency-Wide Shared Services OS:A




                                                                       Page 11
